No. 19-1154
In The

Supreme Court of the United States
ROBINSON NURSING AND REHABILITATION CENTER,
LLC, D/B/A Robinson Nursing and Rehabilitation
Center; CENTRAL ARKANSAS NURSING CENTERS, INC.;
NURSING CONSULTANTS, INC.; and MICHAEL MORTON,
Petitioners,
vs.
ANDREW PHILLIPS, as Personal Representative of the
Estate of Dorothy Phillips, and on Behalf of the
Wrongful Death Beneficiaries of Dorothy Phillips,
and on Behalf of Themselves and All Others
Similarly Situated,
Respondents.
On Petition for a Writ of Certiorari to
the Supreme Court of Arkansas

BRIEF IN OPPOSITION
H. Gregory Campbell
CAMPBELL LAW FIRM, P.A.
2100 Riverdale Road,
Suite 200B
Little Rock, AR 72202
(501) 372-5659

May 18, 2020

Brian D. Reddick
Matthew D. Swindle
Counsel of Record
Heather G. Zachary
REDDICK MOSS, PLLC
One Information Way,
Suite 105
Little Rock, AR 72202
(501) 907-7790
matthew@reddickmoss.com
Counsel for Respondents

i
TABLE OF CONTENTS
Table of Cited Authorities ......................................... iii
Reasons for Denying the Petition ............................... 1
A. This Court Should Deny the Petition
Because the Issues Presented Were
Never Raised to Either of the Courts
Below ................................................................. 1
B. This Court Should Deny the Petition
Because It Does Not Present a Clean
Slate of Questions Supported by a
Developed Record ............................................. 4
C. This Court Should Deny the Petition
Because the Rulings Below Were FactBound and a Direct Result of the Way
Petitioners Presented Their Case.................... 9
1. Petitioners Presented the Arbitration
Agreements as Separate from the
Admission Agreements ................................. 9
2. Petitioners Presented No Evidence
That “Responsible Parties” Were
Signing in an Individual Capacity,
and the Language of the Agreements
Contradict a Third-Party Beneficiary
Argument .................................................... 13

ii
3. Petitioners Failed to Establish That
They Were Obligated to Do Anything
Under the Terms of Their Arbitration
Agreements .................................................. 18
4. Petitioners Failed to Put Any Evidence
in the Record to Establish Mutual
Assent .......................................................... 24
D. This Court Should Deny the Petition
Because the Circuit Split Suggested
by Petitioners Does Not Actually Exist ......... 26
1. The Third-Party Beneficiary Doctrine ....... 27
2. Mutual Obligation ...................................... 29
Conclusion ................................................................. 33

iii
TABLE OF CITED AUTHORITIES
Cases

Page

Adams v. Robertson, ............................................ 1, 2, 4
520 U.S. 83 (1997)
Ball v. Foehner, ........................................................... 6
931 S.W.2d 142 (Ark. 1996)
Bd. of Directors of Rotary Int’l v.
Rotary Club of Duarte, ............................................ 1, 4
481 U.S. 537 (1987)
Century Indem. Co., v. Certain
Underwriters at Lloyd’s, London, ............................. 11
584 F.3d 513 (3d Cir. 2009)
Cheek v. United Healthcare of
Mid-Atlantic, Inc., ............................................... 31, 32
835 A.2d 656 (Md. 2003)
Doctor’s Assocs., Inc. v. Distajo, ................................ 30
66 F.3d 438 (2d Cir. 1995)
Exxon Corp. v. Eagerton, ............................................ 4
462 U.S. 176 (1983)
Extendicare Homes, Inc. v.
Whisman, ..................................................................... 8
478 S.W.3d 306 (Ky. 2015)
FCC v. Fox Television Stations, Inc., ......................... 1
556 U.S. 502 (2009)

iv
Franks v. Bowman Transp. Co., Inc.,......................... 7
424 U.S. 747 (1976)
Garrett v. Andrews, ..................................................... 2
744 S.W.2d 386 (Ark. 1988)
Higgins v. Ally Fin. Inc., ........................................... 30
No. 4:18-CV-0417, 2018 WL 5726213
(W.D. Mo., Nov. 1, 2018)
Howell v. Mississippi, ............................................. 1, 4
543 U.S. 440 (2005)
Hull v. Norcom, Inc., ........................................... 30, 31
750 F.2d 1547 (11th Cir. 1985)
Illinois v. Gates,........................................................... 5
462 U.S. 213 (1983)
Johnson v. Johnson, .................................................. 20
68 S.W.2d 465 (Ark. 1934)
JP Morgan Chase & Co. v. Conegie, ................... 28, 29
492 F.3d 596 (5th Cir. 2007)
Jorja Trading, Inc. v. Willis, ............................. passim
2020 Ark. 133, ---S.W.3d--- (Ark. 2020)
Kelly v. UHC Mgmt. Co., Inc., .................................. 30
967 F. Supp. 1240 (N.D. Ala. 1997)
Kindred Nursing Ctrs. L.P. v. Clark, ..................... 8, 9
137 S. Ct. 1421 (2017)

v
Lamps Plus, Inc. v. Varela, ....................................... 14
139 S. Ct. 1407 (2019)
Lindner v. Mid-Continent
Petroleum Corp., ........................................................ 19
252 S.W.2d 631 (Ark. 1952)
McCourt Mfg. Corp. v. Rycroft, ................................... 2
360 S.W.3d 138 (Ark. 2010)
Noohi v. Toll Bros., Inc., ...................................... 30-32
708 F.3d 599 (4th Cir. 2013)
Northport Health Servs.
of Ark., LLC v. Posey, ........................................... 27-29
930 F.3d 1027 (8th Cir. 2019)
Pine Hills Health & Rehab., LLC v.
Matthews, ............................................................. 24-26
431 S.W.3d 910 (Ark. 2014)
Plummer v. McSweeney, ..................................... 18, 29
941 F.3d 341 (8th Cir. 2019)
Robinson Nursing and Rehab.
Ctr., LLC v. Phillips, ................................................. 12
519 S.W.3d 291 (Ark. 2017)
Sablosky v. Edward S. Gordon Co., Inc., ................. 31
535 N.E.2d 643 (N.Y. 1989)
Soto v. State Indus. Prodsl, Inc., .............................. 30
642 F.3d 67 (1st Cir. 2011)

vi
Union Bankers Ins. Co. v.
Nat’l Bank of Commerce of Pine Bluff, ..................... 16
408 S.W.2d 898 (Ark. 1966)
Webb v. Webb, .............................................................. 4
451 U.S. 493 (1981)
Statutes
9 U.S.C. § 2 ................................................................ 23
28 U.S.C. § 1257 .......................................................... 1
Other Authorities
Restatement (Second) of
Contracts § 71 (1981) ................................................ 19
Restatement (Second) of
Contracts § 76 (1981) .......................................... 19, 21
Restatement (Second) of
Contracts § 79 (1981) ................................................ 19

1
REASONS FOR DENYING THE PETITION
A. This Court Should Deny the Petition Because
the Issues Presented Were Never Raised to
Either of the Courts Below
The Supreme Court “is one of final review, not of
first view.” FCC v. Fox Television Stations, Inc., 556
U.S. 502, 529 (2009). In exercising its jurisdiction
under 28 U.S.C. § 1257, this Court has repeatedly
explained that it “will not consider a petitioner’s
federal claim unless it was either addressed by, or
properly presented to, the state court that rendered
the decision [the Supreme Court] ha[s] been asked to
review.” Adams v. Robertson, 520 U.S. 83, 86 (1997)
(per curiam). “When the highest state court has failed
to pass upon a federal question, it will be assumed
that the omission was due to want of proper
presentation in the state courts, unless the aggrieved
party in [the Supreme Court] can affirmatively show
the contrary.” Bd. of Directors of Rotary Int’l v. Rotary
Club of Duarte, 481 U.S. 537, 550 (1987). This
“presentation requirement is jurisdictional.” Howell v.
Mississippi, 543 U.S. 440, 445 (2005). Failure to raise
the issues presented to this Court in the proceedings
below prevents this Court from reaching the questions
presented in this petition, and any writ of certiorari
granted to review those questions would have to be
dismissed as improvidently granted. Id. at 441-443.
This petition asks the Court to review whether the
Arkansas Supreme Court’s application of basic rules
of contract law is preempted by the Federal
Arbitration Act. All three of the questions presented
are phrased in terms of “whether the FAA preempts a

2
state-law contract rule….” However, the decision
below does not address any argument concerning
preemption at all. See generally Petitioners’ Appendix
A. Nor have the Petitioners specified where that issue
was raised and ruled on below, as required by
Supreme Court Rule 14.1.(g)(i). Unsurprisingly,
preemption was not addressed because the Petitioners
did not raise this issue to the trial court nor to the
Arkansas appellate courts. It was only after the
Arkansas Supreme Court ruled against them that
Petitioners became interested in preemption
arguments.
As this Court noted in Adams, “it would be
unseemly in our dual system of government to disturb
the finality of state judgments on a federal ground
that the state court did not have occasion to consider.”
520 U.S. at 90. Petitioners raised preemption for the
first time in a Petition for Rehearing—18 days after
the Arkansas Supreme Court announced its decision.
Like many other courts around the country, Arkansas
does not allow a party to raise new arguments on
appeal that were not presented to the trial court.
McCourt Mfg. Corp. v. Rycroft, 360 S.W.3d 138, 144
(Ark. 2010). The Arkansas Supreme Court has also
made it clear that it will not consider arguments
raised for the first time in a petition for rehearing.
Garrett v. Andrews, 744 S.W.2d 386, 388 (Ark. 1988).
Therefore, no Arkansas court has had an opportunity
to address the arguments raised in this petition, and
this Court “ha[s] generally refused to consider issues
raised clearly for the first time in a petition for
rehearing when the state court is silent on the
question.” Adams, 520 U.S. at 89, n.3.

3
The importance of presenting the issue and
allowing the state court to pass on it before triggering
this Court’s appellate jurisdiction can be seen clearly
here. When presented with the question and given an
opportunity to address it, the Arkansas Supreme
Court does not shy away from recognizing the
supremacy of the FAA and this Court’s arbitrationrelated precedents. Arkansas recently undertook a
thorough analysis of a mutual obligation question
similar to the one Petitioners have submitted here. In
Jorja Trading, Inc. v. Willis, 2020 Ark. 133, ---S.W.3d
--- (Ark. 2020), the Arkansas Supreme Court analyzed
its mutual obligation requirement and reversed the
denial of a motion to compel arbitration because the
trial court had misapplied the rule to require identical
bilateral obligations in every provision of a contract.
The court explained:
This court has not required that every
provision within a contract be bilateral.
We therefore cannot require that every
provision in an arbitration agreement be
bilateral without violating the FAA
because doing so would hold arbitration
agreements to a more stringent analysis
than other contracts. Because the FAA
preempts, we cannot single out a rule or
application unique to arbitration
agreements. That is precisely what the
FAA prohibits.
Id., 2020 Ark. 133, at 5-6 (internal citations omitted).
As will be discussed in Section C.3., infra, Jorja is
substantively distinguishable as it relates to the
enforceability of the arbitration agreement. The facts

4
of this case, as well as the way the Petitioners
presented it, dictated its outcome. However, Jorja
aptly illustrates that the Arkansas Supreme Court is
not attempting to sidestep FAA requirements and will
address perceived conflicts and preemption issues
when they are actually raised by the parties.
Petitioners are asking this Court to rule on their
arguments in the first instance rather than review a
squarely teed-up question that was answered first in
the state court system. The Petitioners’ failure to raise
their preemption arguments prior to a petition for
rehearing prevents this Court from exercising
jurisdiction to reach the questions presented in the
petition for a writ of certiorari, and the petition should
be denied. Rotary Club of Duarte, 481 U.S. at 550;
Adams, 520 U.S. 83; Howell, 543 U.S. 440; Exxon
Corp. v. Eagerton, 462 U.S. 176, 181, n.3 (1983).
B. This Court Should Deny the Petition Because
It Does Not Present a Clean Slate of
Questions Supported by a Developed Record
This Court has recognized the role of the
presentation requirement in refining the Court’s
deliberations “by promoting the creation of an
adequate factual and legal record.” Adams, 520 U.S.
at 90-91. It “affords the parties the opportunity to
develop the record necessary for adjudicating the
issue[,]” and gives state courts an opportunity to
exercise their authority so as to apply state law in
ways that obviate and avoid federal problems. Webb v.
Webb, 451 U.S. 493, 500 (1981). And as the Court has
pointed out, “questions not raised below are those on
which the record is very likely to be inadequate since

5
it certainly was not compiled with those questions in
mind.” Illinois v. Gates, 462 U.S. 213, 221 (1983).
As mentioned above, the record in this case is
bereft of any discussion concerning the issues sought
to be reviewed in the pending petition. Not only has
the record been stunted by Petitioners’ failure to
present their issues below, but the record is also sorely
underdeveloped because Respondents were never
even allowed to make a record attacking the validity
of the arbitration agreements at issue.
This case entails the examination of 544 separate
arbitration agreements. App. 3a. Each agreement
raised questions concerning who signed the
agreement, if it was signed at all, in what capacity was
the person who signed the agreement signing it, when
was the agreement signed, did the person signing the
agreement have the authority to sign the agreement
at that time, and was any record evidence submitted
in support of the propositions necessary to establish
the validity of each of these agreements. Each of the
544 agreements was supposed to be accompanied by
supporting documentation in the form of power of
attorney documents, guardianship documents, and
ancillary admission agreements. App. 3a.
These 544 agreements were submitted to the trial
court through four different motions to compel
arbitration filed on September 1 and September 5,
2017. App. 3a. Given the vast undertaking of
examining the factual scenario represented in each of
these 544 agreements, counsel for the Respondents
sought, and was granted, an extension of time until
October 17 to respond to the various motions to compel

6
arbitration. App. 4a. Twenty-one days after the first
motion to compel was filed, and during an unrelated
hearing concerning sending notice to the class
members, the trial court took up the motions sua
sponte and summarily denied them without any
argument from either side and without even allowing
the Respondents to respond to any of the motions.
App. 33a-37a.
The first time that Respondents had an
opportunity to make any sort of argument concerning
these agreements was in response to the Petitioners’
appeal to the Arkansas Supreme Court. And there,
Respondents were severely curtailed in developing the
record as well. The trial court’s on-record reasoning
strongly suggested that Petitioners had waived their
right to enforce these agreements or were estopped
from doing so by not litigating the arbitration
agreements’ effect on the class definition that had
been certified previously. See App. 35a-36a. However,
when Respondents raised those issues with the
Arkansas Supreme Court, that court refused to
entertain the argument, explaining that it would only
rule on the arguments raised to the trial court and
penalizing the Respondents for failing to obtain a
ruling on these arguments—a feat not possible
because (1) Respondents had not been allowed to
argue at all; (2) Respondents had won the motions,
and “a party cannot appeal from a favorable ruling,”
Ball v. Foehner, 931 S.W.2d 142, 145 (Ark. 1996); and
(3) the trial court refused to make any specific findings
of fact or conclusions of law, see App. 4a, 6a. Ironically,
in a portion of the hearing transcript omitted from
Petitioners’ Appendix C, the trial court expressed
unwillingness to articulate factual findings and legal

7
conclusions because it “hampers appellate counsel
when they are preparing arguments” and it “would be
overstepping into appellate advocacy.” Record 6596.
It should also be noted that in their reply brief to
the Arkansas Supreme Court, the Petitioners objected
to any arguments challenging the validity of these
arbitration agreements as not preserved for appeal
because they had not been first presented to the trial
court. Reply Brief, p. 2. The Petitioners also
specifically objected to any arguments concerning
mutual obligation (question presented herein # 2), id.
at p. 13, and mutual assent (question presented
herein # 3), id. at p. 18, because they had not been
raised below.
As already mentioned, Petitioners failed to allow
the Arkansas Supreme Court to pass on the
preemption questions that comprise their request for
the current writ. And as the Arkansas court noted in
its opinion, it was considering “only the issues raised
by Robinson in its motions to compel.” App. 6a
(emphasis added). Although describing the purpose of
the concept of standing, the Court has expressed the
importance of “that concrete adverseness which
sharpens the presentation of issues upon which the
court so largely depends for illumination of difficult
questions.” Franks v. Bowman Transp. Co., Inc., 424
U.S. 747, 755 (1976). This case offers no such
illumination. If the petition is granted, the Court will
inherit a one-sided and quite underdeveloped record
concerning these 544 agreements, devoid of any
opportunity for the Respondents to develop the facts
or press the full range of available legal arguments.
The lack of a record below denied the Arkansas

8
Supreme Court the opportunity to address the
relevant issues in a way that avoids the alleged
federal problem, even though the court is quite
capable of doing so. See Jorja, supra. This Court would
be placed in the position of having to stretch to reach
the questions presented and would be answering them
in the first instance. And Respondents’ first
opportunity to even address the preemption issue
would be in the briefing to this Court.
This case would be a stark departure from
arbitration cases this Court has reviewed which
contain well-developed and fully-considered federal
arguments. See e.g. Extendicare Homes, Inc. v.
Whisman, 478 S.W.3d 306 (Ky. 2015) (reversed sub
nom by Kindred Nursing Ctrs. L.P. v. Clark, 137 S. Ct.
1421 (2017)). In Extendicare, the parties thoroughly
briefed whether Kentucky’s rule requiring power-ofattorney documents to explicitly grant authority to
waive access to the courts conflicted with this Court’s
arbitration holdings. The Kentucky Supreme Court
analyzed the issue and dedicated several pages of its
decision to the perceived federal conflict. Id. at 330331. The Kentucky Supreme Court had been
presented with opposing arguments from the litigants
and given ample opportunity to consider that rule’s
validity in comparison to the clear pronouncements
from this Court. When this Court then took up the
issue, it had not only the rule squarely presented for
review, but a pronouncement from the highest court
of Kentucky analyzing that rule’s interplay with the
FAA and Supreme Court precedent. Any conflict with
federal law and precedent was clearly exposed and the
underlying analysis was laid bare. On review, this
Court proceeded to dissect the rule and break down

9
the Kentucky court’s attempt to reconcile it with the
FAA. Kindred Nursing, 137 S. Ct. at 1427-1428.
The Supreme Court will have no such record or
analysis to consider here. Accordingly, Respondents
respectfully submit that the petition should be denied.
C. This Court Should Deny the Petition Because
the Rulings Below Were Fact-Bound and a
Direct Result of the Way Petitioners
Presented Their Case
Petitioners premise their entitlement to a writ of
certiorari on a complete mischaracterization of how
the Petitioners presented their case and how it was
handled by the courts below.
1. Petitioners
Presented
the
Arbitration
Agreements as Separate from the Admission
Agreements
According to Petitioners, the genesis of Arkansas’s
hostile
treatment
toward
their
arbitration
agreements was when the court decided (1) “that the
arbitration agreement was a separate contract from
the admission agreement,” and (2) “the court held the
underlying
admission
agreement
was
fully
enforceable.” See Petition, pp. 9-10. Having
successfully parsed the two agreements apart, the
court then proceeded to employ its three, hostile
arbitration-agreement-destroying devices. Both of
these premises require clarification.
What the Petitioners have omitted is that the
Petitioners, themselves, consistently referred to the

10
arbitration agreement as its own contract, enforceable
in its own right. Starting with their very first motion
to compel arbitration and repeated in each successive
motion, the Petitioners asserted that the arbitration
agreements—by themselves, and without reference to
the admission agreements—“clearly demonstrate all 5
elements [of a valid contract.]” Memo. Mot. to Enforce
Arb. Agmts., Record 005; 121; 1217; 3740. They
repeatedly argued that “[t]he Arbitration Agreements
executed by these [Guardians/residents/Powers of
Attorney/Responsible Parties] are valid contracts to
arbitrate disputes and should be enforced according to
their terms.” Id. at 003; 119; 1216; 3738. Even more
explicitly, while analyzing the five elements of a valid
contract under Arkansas law, the Petitioners claimed
that “[t]he subject matter is to arbitrate disputes,” and
“the legal consideration is an exchange of promises to
arbitrate.” Id. at 006; 121; 1217; 3740. In their
arguments to this Court, the Petitioners now blame
the courts below for treating these agreements exactly
how Petitioners told those courts to treat them, i.e.,
independently. In light of the fact that Petitioners
were trying to bulk enforce 544 separate agreements,
with multiple variations in the agreements they
submitted, they should not be heard to complain when
the court accepts Petitioners’ representations that the
arbitration agreements could be analyzed separately
for contractual validity.
The Petitioners also complain that the arbitration
agreements had to be read into the admission
agreements because they were incorporated into the
admission agreements. This argument necessarily—
but incorrectly—presumes the arbitration agreements
to be valid. To bolster their newly-minted argument

11
that these separate documents are really one,
Petitioners now suggest that the arbitration
agreement was on a separate sheet of paper and
required a separate signature merely “to assure it is
properly highlighted and considered by the signee—
not to be given different treatment from the admission
agreement.” Petition, p. 14. In short, if the admission
agreement is valid then, ipso facto, the arbitration
agreement is valid.
In context, the Petitioners’ argument is not
sustainable. The arbitration agreements they
submitted were not arbitration clauses nestled into an
otherwise valid contract. They were separate
agreements, and, in their own words, “the subject
matter [was] to arbitrate disputes,” and “the legal
consideration [was] an exchange of promises to
arbitrate.” If the Petitioners were sincere in their
argument, then they would have compelled the entire
class (consisting of over 1,000 members) to arbitration
based upon nothing more than the existence of an
admission agreement. Instead, they took only the 544
separate arbitration agreements that had signatures
on them—regardless of whose signature it was—and
submitted them with their demand for arbitration. As
the Third Circuit has stated, “[t]he strong federal
policy favoring arbitration, however, does not lead
automatically to the submission of a dispute to
arbitration upon the demand of a party to the
dispute.” Century Indem. Co. v. Certain Underwriters
at Lloyd’s, London, 584 F.3d 513, 523 (3d Cir. 2009).
The arbitration agreements must still be valid to
justify compelling arbitration. Likewise, a separate
arbitration agreement that does not exist or that is not
valid cannot be incorporated into the admission

12
agreement and forced into existence by virtue of
nothing more than the admission agreement, itself.
Petitioners further criticize the courts below for
“h[olding] the underlying admission agreement was
fully enforceable” but then treating the arbitration
agreement differently. To be clear, no court has passed
on the validity of the admission agreement. Neither
the trial court nor the Arkansas Supreme Court has
held that the admission agreements are valid. When
Respondents sought class certification of their breachof-contract claim, the validity of that claim was not
before the court: “We have said that neither the circuit
court nor the appellate court may delve into the merits
of the underlying claim when deciding whether the
requirements of Rule 23 have been met.” Robinson
Nursing and Rehab. Ctr., LLC v. Phillips, 519 S.W.3d
291, 300 (Ark. 2017). Likewise, in the opinion below,
the Arkansas Supreme Court did not undertake an
analysis of whether the admission agreements were
valid, rather it was constrained to answering two
threshold questions: “(1) Is there a valid agreement to
arbitrate between the parties? and (2) If such an
agreement exists, does the dispute fall within its
scope?” App. 5a. Analyzing the validity of a separate
arbitration agreement is not treating it differently
than other agreements and does not display the
hostility toward arbitration agreements by the
Arkansas Supreme Court that the Petitioners have
suggested.

13
2. Petitioners Presented No Evidence That
“Responsible Parties” Were Signing in an
Individual Capacity, and the Language of the
Agreements
Contradict
a
Third-Party
Beneficiary Argument
Petitioners’ entire argument regarding third-party
beneficiaries stems from the mischaracterization
described above. Petitioners necessarily rely on the
separate admission agreement for their argument.
See e.g. Petition, p. 13 (“the residents have gained the
benefits of these contracts by receiving care and are
bringing claims based on these contracts”). But, as
already discussed, the admission agreement cannot
validate an otherwise invalid arbitration agreement.
Nor can a person be a third-party beneficiary in the
absence of any valid contract at all.
Even accepting Petitioners’ argument that the
admission agreement could somehow validate the
separate arbitration agreement, the argument would
still fail because it rests on factual premises that the
Petitioners failed to establish. When a third-party
agent signs an arbitration agreement on behalf of
someone else, they must have authority from the
principal to do so. App. 8a. The Petitioners argue that
“Responsible Parties” entered into admission
agreements on behalf of nursing home residents,
thereby binding the residents to arbitration as thirdparty beneficiaries of those agreements. However, the
Petitioners failed to present any evidence that these
individuals had any authority whatsoever to contract
on behalf of the residents. In fact, Petitioners failed to
present any evidence about who these people were at
all. They just submitted the agreements—signed by

14
someone other than the resident allegedly bound by
that agreement—and assumed the agreements were
enforceable. Petitioners conceded below that these
individuals lacked authority to contract on behalf of
the residents. App. 8a.
Even though Petitioners admitted the signatories
had no authority to contract for residents, Petitioners
continue to argue that the residents should be bound
to arbitration by the signatories’ actions. To paper
over their failure to present proof of authority, the
Petitioners have argued that the signatories were not
signing on behalf of the residents at all. According to
Petitioners, the “Responsible Parties” were signing in
their individual capacities and creating their own
contract with the nursing facility to benefit the
resident—whose consent and authority was not
needed and who, for all intents and purposes, could be
completely unaware this was happening. The
Petitioners are urging the use of the third-party
beneficiary doctrine to replace the resident’s consent
to arbitrate. As the Court is well aware, “[t]he first
principle that underscores all of [this Court’s]
arbitration decisions is that arbitration is strictly a
matter of consent.” Lamps Plus, Inc. v. Varela, 139 S.
Ct. 1407, 1415 (2019). But even putting that principle
aside, Petitioners failed to establish as a factual
matter that the signatories were contracting in their
individual capacities.
Petitioners argue that the language of
agreement itself dictates the capacity in which
“Responsible Parties” signed. It should not
overlooked, that there were three variants of
arbitration agreements, only one of which used

the
the
be
the
the

15
term “Responsible Party.” The other two variants
clearly referred to the “Resident and/or Legal
Representative,” or “Resident Representative,”
completely undermining Petitioners’ argument that
the agreement was meant to be signed by a person in
anything other than a representative, agent capacity
for the resident. See App. 9a. The Arkansas Supreme
Court correctly acknowledged that “[b]y its argument,
Robinson essentially concede[d] that the third-party
beneficiary doctrine does not apply to two of the three
versions of its arbitration agreements, both of which
utilize the terms ‘Resident Representative’ or ‘Legal
Representative.’” App. 13a.
Even in that third version of the agreement, the
term “Responsible Party” points to a resident
representative. First, the definition of the term is
comprised of a list of descriptors: (1) “your legal
guardian, if one has been appointed,” (2) “your
attorney-in-fact, if you have executed a power of
attorney,” or (3) “some other individual or family
member who agrees to assist the Facility in providing
for your health, care and maintenance.” App. 10a;
Record 3746. The first two specific items in this list
unquestionably refer to a “Responsible Party” as
someone with authority to represent and make
decisions for the resident. The Arkansas Supreme
Court follows the rule of ejusdem generis in construing
contracts:
In the construction of laws, wills, and
other instruments, the ‘esjusdem generis
rule’ is, that where general words follow
an enumeration of persons or things, by
words of a particular and specific

16
meaning, such general words are not to
be construed in their widest extent, but
are to be held as applying only to persons
or things of the same general kind or
class as those specifically mentioned.
Union Bankers Ins. Co. v. Nat’l Bank of Commerce of
Pine Bluff, 408 S.W.2d 898, 900 (Ark. 1966). As such,
the broader third term of “other individual or family
member who agrees to assist the Facility…” would be
interpreted in light of the first two preceding terms
which refer to classes of people with representative
authority to speak for the resident.
In addition, the other language in the Petitioners’
agreements makes clear that a “Responsible Party” is
one with authority to act for the resident. The last part
of the definition of the term in the admission
agreement refers to one who “manages, uses, controls
or otherwise has legal access to the Resident’s income
or resources.” Record 3749, fn. 2. The “Responsible
Party” is supposed to have the authority to “release[ ]
the Facility, its owners, directors, agents, and
employees from all liabilities arising from the care
given to the Resident by the private nurse, attendant,
or sitter.” Record 3750, § 2.4(c). The “Responsible
Party” also should have the authority to make the
resident’s decisions regarding “advance directives,
code status, consent for photographs, and use of [the
resident’s] name” as well as to “unconditionally
submit[ ] to the jurisdiction of the courts located in the
State in which the Facility is located” on behalf of the
resident. Record 3750, § 2.4(e); Record 3755, § 6.3. The
agreement, itself, even contemplates that the
“Responsible Party” is one who has been “appoint[ed]”

17
to make decisions concerning the resident. Record
3750, § 2.4(b). The payment provisions of the
admission agreement most clearly illustrate that the
“Responsible Party” is not taking on any individual
obligations. Throughout Section 4, it is reiterated that
the “Responsible Party” is not individually liable, but
is only obligated if, and only to the extent, that the
Responsible Party has legal access to the resident’s
income and resources from which to pay the resident’s
obligations. Record 3751-3752, §§ 4.1(a), 4.6, 4.8.
The types of decisions and obligations attributed to
the “Responsible Party” are not those that can be
made by simply any “other individual or family
member who agrees.” Other individuals and family
members cannot consent to jurisdiction on behalf of
another, nor can they release the potential claims of
another—unless they have authority from the person
to do so. Petitioners’ own language in their admission
agreements and arbitration agreements forecloses
their argument that the “Responsible Party” was
signing in an individual capacity. See App. 13a-14a.
Absent any authority from the resident—which
Petitioners
conceded
below—the
admission
agreement “do[es] not place any specific obligations or
personal liability upon the ‘Responsible Party.’” Id.
Petitioners did not put on any other evidence in
support of their claim that the “Responsible Parties”
were acting in their individual capacity. With no facts
to support their contention, and with their own words
clearly undermining their argument, Petitioners
failed to establish the first element necessary to apply
the third-party beneficiary doctrine, i.e. a valid
contract.

18
3. Petitioners Failed to Establish That They Were
Obligated to Do Anything Under the Terms of
Their Arbitration Agreements
Petitioners also mischaracterize Arkansas’s
contract law by suggesting that Arkansas requires coextensive promises to arbitrate. Petitioners work very
hard to distort and muddy the element of mutual
obligation beyond recognition, even using the Eighth
Circuit’s opinion in Plummer v. McSweeney, 941 F.3d
341 (2019), to suggest that if Arkansas’s mutual
obligation requirement was applied to other contracts
the same way it was applied to arbitration, that you
could not have a contract to build a house unless both
parties were mutually obligated to build a house. See
Petition, p. 17. This is not an accurate representation
of the mutual obligation requirement, and, again,
Petitioners’ presentation of the case and its factual
underpinnings—not some deep seeded hostility
toward arbitration—is to blame for Petitioners’ loss at
the Arkansas Supreme Court.
Arkansas’s mutual obligation requirement does
not require each party to be mutually obligated to do
the exact same thing, e.g. to arbitrate. It does,
however, require each party to be obligated to do, or
not do, something. Otherwise you would have no
contract; you would have only a gratuitous promise.
Arkansas’s mutual obligation requirement is
nothing more than an offshoot of well-known and
universally accepted consideration principles. The
Restatement explains that “[i]f the requirement of
consideration is met, there is no additional

19
requirement of . . . mutuality of obligation.”
Restatement (Second) of Contracts § 79 (1981).
Consideration, however, is a bargained for
performance or return promise given in exchange for
another performance or promise. Id. at § 71(2). As the
Restatement further explains, “sham or ‘nominal’
consideration does not satisfy the [consideration]
requirement of § 71.” Id. at § 79 cmt. d. “Words of
promise do not constitute a promise if they make
performance entirely optional with the purported
promisor.” Id. at § 76 cmt. d. “Such words, often
referred to as forming an illusory promise, do not
constitute consideration for a return promise.” Id.
The Arkansas Supreme Court has been explaining
this exact point for decades. In Lindner v. MidContinent Petroleum Corp., the court explained that
“Williston has pointed out that the use of the term
‘mutuality’ in this connection ‘is likely to cause
confusion and however limited is at best an
unnecessary way of stating that there must be a valid
consideration.’” 252 S.W.2d 631, 632 (Ark. 1952)
(quoting Williston on Contracts § 141). The court
further explained that “the requirement of mutuality
does not mean that the promisor’s obligation must be
exactly coextensive with that of the promisee.” Id. It
simply means there must be consideration for the
promise, and “[o]f course a promise which is merely
illusory . . . falls short of being a consideration for the
promisee’s undertaking, and neither is bound.” Id.
Even reaching as far back as 1934, the court explained
as follows:
The doctrine of mutuality of obligation
appears therefore to be merely one

20
aspect of the rule that mutual promises
constitute considerations for each other.
Where there is no other consideration for
a contract, the mutual promises must be
binding on both parties. But where there
is any other consideration for the
contract, mutuality of obligation is not
essential.
Johnson v. Johnson, 68 S.W.2d 465, 466 (Ark. 1934).
Or, as the court has expressed it more recently: “The
element of mutuality of contract means that an
obligation must rest on each party to do or permit to
be done something in consideration of the act or
promise of the other; that is, neither party is bound
unless both are bound.” App. 16a.
Applying these principles to the current case
demonstrates why the Petitioners failed below. As
already discussed in Section C.1., Petitioners
consistently argued that the arbitration agreements
they sought to enforce were valid contracts in their
own right, each satisfying all necessary contractual
elements. They explicitly contended that “[t]he subject
matter is to arbitrate disputes,” and “the legal
consideration is an exchange of promises to arbitrate.”
Memo. Mot. to Enforce Arb. Agmts., Record 006; 121;
1217; 3740 (emphasis added). Thus, if the arbitration
agreements are to stand on their own feet, Petitioners
had to promise to do something in these agreements
in consideration for the residents’ promises to
arbitrate disputes. Taking them at their word, the
Petitioners allegedly also provided a promise to
arbitrate in consideration for the residents’ promises.

21
But, as a factual matter, the court found that
Petitioners had made no such promise. By promising
to arbitrate only their claims against residents that
exceeded $30,000, the court recognized that
Petitioners had not actually promised to arbitrate
anything at all. To borrow language from the
Restatement,
their
promise
was
“sham
consideration,” “an illusory promise,” or words of
promise that “make performance entirely optional
with the purported promisor.” The court examined
Petitioners’ agreements and even entertained their
hypothetical scenarios in which Petitioners claimed
they might be bound to arbitrate, but found that the
Petitioners had structured their relationship with
residents in such a way that Petitioners could never
have a claim that would be subject to arbitration
according to the terms of their agreement. App. 17a18a, and n.4.
Virtually this same scenario is presented as an
example in the Restatement of an instance in which
there is no valid consideration. “A conditional promise
is not consideration if the promisor knows at the time
of making the promise that the condition cannot
occur.” Restatement (Second) of Contracts § 76.
Illustration 1 to comment b. presents this fact pattern:
“A promises B to pay him $5,000 if B’s ship now at sea
has already been lost, knowing that the ship has not
been lost. A’s promise is illusory and is not
consideration for a return promise.” Changing only a
few words creates the scenario in this case:
“Petitioners promise residents to arbitrate if
Petitioners have claims against residents that exceed
$30,000, knowing that Petitioners will never have

22
claims that exceed $30,000. Petitioners’ promise is
illusory and is not consideration for a return promise.”
In stark contrast is the Arkansas Supreme Court’s
treatment of the arbitration agreement in Jorja
Trading, Inc. v. Willis, 2020 Ark. 133, ---S.W.3d--(Ark. 2020). In Jorja, the agreement to arbitrate was
a clause contained within an installment-sale contract
for an automobile. And the court made sure to point
out this important fact: “[H]ere we refer to the
arbitration clause as an ‘arbitration agreement.’
However, the arbitration agreement is a paragraph
contained in the installment-sale contract; it is not a
separate, independently executed contract. Id. at 2, n.
1 (emphasis added). The trial court denied a motion to
compel arbitration because it concluded that certain
portions of the contract did not mutually obligate the
parties. Id. Rather than use this mutual-obligation
“device” of which Petitioners complain to demonstrate
its hostility toward arbitration, the Arkansas
Supreme Court reversed.
Unlike the case below, the court was directly
presented with questions of preemption, and the court
addressed those questions head-on. Id. at 5-7. The
court summarized its mutual obligation requirement
by explaining that “a contract that provides one party
the option not to perform his promise would not be
binding on the other.” Id. at 5. However, unlike
Petitioners’ separate arbitration agreement in which
they promised absolutely nothing, the court in Jorja
recognized that consideration supported the
installment-sale contract, of which the arbitration
agreement was merely a part. The court explained
that “Appellants delivered possession of and financed

23
a car in exchange for appellees’ down payment and a
promise to make future payments, satisfying
mutuality of the installment-sales contract.” Id.
The court continued that it “has not required every
provision within a contract be bilateral” and that it
“cannot require that every provision in an arbitration
agreement be bilateral without violating the FAA
because doing so would hold arbitration agreements
to a more stringent analysis than other contracts.” Id.
Citing Lindner and Johnson, supra, the court
explained that mutual obligation did not require each
party to have identical rights and remedies, i.e. that
each party had to be equally bound to arbitrate. But
what it did require was “that the duty unconditionally
undertaken by each party be regarded by the law as a
sufficient consideration for the other’s promise.” Id. at
6.
When presented with a contract that was actually
supported by consideration, the Arkansas Supreme
Court had no hesitation in enforcing that contract,
including the arbitration provision therein. The key
point of departure from the decision below to Jorja,
however, is that the Petitioners presented a separate,
independent arbitration contract, which they argued
was supported by the consideration of a promise to
arbitrate—a promise that Petitioners didn’t actually
make. The federal and state policies favoring
arbitration as a method of dispute resolution do not
compel courts to overlook glaring deficiencies in
arbitration agreements that would invalidate any
other contract. 9 U.S.C. § 2.

24
4. Petitioners Failed to Put Any Evidence in the
Record to Establish Mutual Assent
Petitioners also mischaracterize and distort the
Arkansas Supreme Court’s treatment of the concept of
mutual assent. Arkansas’s courts do not require
arbitration agreements to be signed as the only
mechanism sufficient to prove mutual assent, but they
do require some record proof of assent. The Petitioners
cite Pine Hills Health & Rehab., LLC v. Matthews, 431
S.W.3d 910 (Ark. 2014), for the proposition that the
Arkansas Supreme Court has long held that a written
contract can be valid as long as one of the parties signs
and the other party acquiesces therein. Petition, p. 21.
Petitioners’ reliance on Matthews is ironic. Much
like it did in this case, in Matthews the Arkansas
Supreme Court found an arbitration agreement to be
invalid for lack of a signature by a facility
representative. Even more ironic is the fact that
Petitioners were aware of this six-year old case and
yet still did the exact same thing that doomed the
argument of the nursing facility in the Matthews case.
While Matthews recognizes that an agreement need
not be signed, it does not relieve the proponent of the
contract of the burden of actually submitting some
form of proof of assent, which is exactly what the
facility in Matthews failed to do. And the Petitioners
repeated the same mistake to the letter.
The court in Matthews explained that it “employs
an objective test for determining mutual assent, . . .
mean[ing] objective indicators of agreement and not
subjective opinions.” 431 S.W.3d at 915. The court
acknowledged that the presence or absence of a

25
signature was not determinative and that other
conduct may manifest assent. Id. The problem for the
Petitioners, and the defendants in Matthews, is that
they failed to present anything other than their
unsigned arbitration agreement as proof of their
assent to that agreement. They did not call any
witnesses. They did not submit any affidavits.
Instead, they filed a motion to compel arbitration
accompanied by an unsigned arbitration agreement
and let counsel argue that the facility clearly intended
to assent to that blank agreement. By submitting only
their unsigned arbitration agreement, the Petitioners
relied solely on their counsel’s subjective opinion that
assent had occurred. But they failed to produce any
objective, record evidence of assent. This deficiency
was dispositive, as explained in Matthews:
Though a hearing was held on the issue
of whether Pine Hills had manifested its
assent to the contract, no testimony was
presented at the hearing. What we have
before us then are the first two pages of
the Arbitration Agreement, an exemplar
of the missing third page, and the
Admission Agreement. There is no
signature on the Arbitration Agreement
by a representative of Pine Hills to
indicate mutual assent. Rather there is a
document whose missing third page
contained a signature block for a
representative of Pine Hills . . . Though
appellants assert that their conduct
indicated Pine Hills’s manifestation of its
assent to the Arbitration Agreement,
there was no testimony presented

26
concerning any conduct that would have
manifested assent.
Id. (emphasis added).
If the Petitioners wanted to rely on the rule that a
contract need not be signed to be enforceable, then
they necessarily bore the burden of putting on some
evidence of assent other than the unsigned contract.
As the Matthews court concluded, when a nursing
facility’s representative declines to sign an arbitration
agreement and the facility fails to put on other
evidence, the objective test of assent is not met. Id. at
915-916. Even now, Petitioners continue to rely on
argument of counsel and the conclusory assertion
that, “of course the facility assented to the
agreement,” as cover for their failure to create a
record.
Factually, the court below had nothing in the
record before it from which to determine objective
assent other than the unsigned arbitration
agreements. The court’s decision was not driven by
hostility toward arbitration; it was driven by
Petitioners’ failure to carry their burden of actually
putting evidence in the record to establish assent.
D. This Court Should Deny the Petition Because
the Circuit Split Suggested by Petitioners
Does Not Actually Exist
Petitioners point to two alleged circuit splits in
support of their request for this Court’s review. Both
instances, however, are actually examples of how the
decision below is consistent with basic principles of

27
contract law. The Petitioners have merely stretched
and distorted these principles to manufacture the
appearance of a split that is not really there.
1. The Third-Party Beneficiary Doctrine
Petitioners first assert that the Fifth and Eighth
Circuits have diverged on the question of whether
nursing home residents can be bound as third-party
beneficiaries to arbitration agreements signed by
individuals on the residents’ behalf. Petitioners’
characterization of this “split” is specious for several
reasons.
First, neither court actually had to reach the thirdparty beneficiary argument because the cases were
resolved on the issue of authority. In Northport Health
Servs. of Ark., LLC v. Posey, the Eighth Circuit
acknowledged the basic principle that a person cannot
sign a contract as the representative of another
without that other person’s authorization. 930 F.3d
1027, 1030-1031 (8th Cir. 2019). The court reached the
exact same conclusion that the Arkansas Supreme
Court reached below in determining that the
resident’s “Responsible Party” referred to a person
with representative authority from the resident,
rather than to a person acting on their own behalf and
in their individual capacity. Id. at 1031. The court
considered an agreement virtually identical to the one
involved in this case and explained that “the definition
of Responsible Party in the agreement equates a
Responsible Party to a legal guardian, attorney-infact, or legal representative.” Id. Because the
signatory lacked authority to make the contract, no
valid contract was ever formed, and, thus, the third-

28
party beneficiary doctrine could not apply. Id. See also
App. 8a (explaining the first element needed to apply
the third-party beneficiary doctrine is an underlying
valid agreement between two parties).
In contrast, the signatory in JP Morgan Chase &
Co. v. Conegie had the necessary authority to enter
into the admission agreement on behalf of the resident
pursuant to a Mississippi statute. 492 F.3d 596, 599600 (5th Cir. 2007). The court concluded that the
agreement was valid under state law because the
signatory was authorized by the statute to contract for
the resident. Id. at 599-600. The court then gave a
perfunctory and unnecessary two-paragraph analysis
addressing the third-party beneficiary issue in the
alternative and based on an assumption that federal
law might apply to the question. Id. at 600.
Regardless, because of the court’s conclusion that the
signatory was authorized to make the contract, there
was no barrier to applying the third-party beneficiary
doctrine; there was a valid underlying contract.
These two cases do not demonstrate a split in the
law concerning application of the third-party
beneficiary doctrine. They do demonstrate a factual
difference between the authority possessed by the
signatories. In light of those factual differences, these
cases actually demonstrate a uniform approach to the
basic rule that a representative or agent must have
authority to enter a contract on another’s behalf.
In addition, both of these cases involved
arbitration provisions that were part and parcel of the
admission agreements signed by the parties. Whereas
in the current case, the arbitration agreements were

29
presented by Petitioners as standalone contracts,
separate from the admission agreements. This
important factual distinction makes this case a poor
candidate for certiorari to address any perceived split
between JP Morgan and Northport.
2. Mutual Obligation
Petitioners also claim a circuit split on the issue of
mutual obligation. As their flagship example, the
Petitioners cite Plummer v. McSweeney, 941 F.3d 341
(8th Cir. 2019) for “the reasons Arkansas’ entire
mutuality of obligation doctrine for arbitration
agreements violates the FAA.” Petition, p. 17.
Curiously, Plummer was decided according to the law
of Washington, D.C. and under an unconscionability
analysis, making Plummer a less than ideal candidate
to provide a detailed commentary on Arkansas law.
See 941 F.3d at 344 (“[the district court] declined to
enforce [the contract] on the ground that the contract
was unconscionable under Washington D.C. law,
which the parties agree is appropriate under a choiceof-law provision in the agreement”).
Plummer is also the source of Petitioners’ strained
analysis that if Arkansas applied its mutual
obligation rules to other contracts the way they have
been applied to arbitration agreements, then a
contract to build a house would fail for lack of mutual
promises on both sides to build a house. See id. at 347,
n.1. But as already discussed in Section C.3., supra,
this is a mischaracterization of what are otherwise
universally accepted rules regarding the necessity of
consideration in a contract.

30
Propped up against this strawman, the Petitioners
point to case after case as standing for the proposition
that mutual obligation is not required. However, none
of these cases are actually out of step with Arkansas
law in any meaningful fashion, and each of them is
factually distinct from the case presented by the
Petitioners below. For example, in Doctor’s Assocs.,
Inc. v. Distajo, 66 F.3d 438, 451-453 (2d Cir. 1995), an
arbitration clause contained within a contract was
valid even though both sides were not obligated to
arbitrate all their disputes because there was
consideration for the contract as a whole. See also Soto
v. State Indus. Prods., Inc., 642 F.3d 67 (1st Cir. 2011)
(same). This is the same rule the Arkansas Supreme
Court applied in Jorja, 2020 Ark. 133, at 5-8, --S.W.3d---. But it could not be applied in this case
because there was no consideration supporting
Petitioners’
separate
arbitration
agreements.
Petitioners’ other examples are similar. See Kelly v.
UHC Mgmt. Co., Inc. 967 F. Supp. 1240, 1258-1260
(N.D. Ala. 1997) (mutual obligation not required so
long as there is consideration exchanged); Higgins v.
Ally Fin. Inc., No. 4:18-CV-0417, 2018 WL 5726213, at
*3-4 (W.D. Mo. Nov. 1, 2018) (arbitration clause part
of an otherwise valid contract can be supported by the
consideration underlying the whole contract). As Jorja
demonstrates, the Arkansas Supreme Court adheres
to all of these principles and applies them uniformly
to valid contracts, even contracts that include
arbitration provisions.
Petitioners also cite to Hull v. Norcom, Inc., 750
F.2d 1547 (11th Cir. 1985) and Noohi v. Toll Bros.,
Inc., 708 F.3d 599 (4th Cir. 2013) as further evidence
of a split and argue that these circuits have concluded

31
that state rules requiring mutual obligation in
arbitration agreements are not preempted by the
FAA. This is misleading in a few respects. First, it
conflates the phrase “mutual obligation” with a
requirement of co-extensive and perfectly identical
promises to perform some act, e.g. to arbitrate. As
discussed above, that is not how the Arkansas
Supreme Court applies the principle of mutual
obligation. It has required only that a contract impose
some real obligation on the contracting party, not “a
precisely even exchange of identical rights and
obligations between the contracting parties.” Jorja,
2020 Ark. 133, at 6, ---S.W.3d---. To the extent that
“mutual obligation” simply means that there must be
consideration to support a contract, that would
certainly not be preempted by the FAA.
Furthermore, Hull is no longer a viable case for
Petitioners’ proposition. In Hull, an arbitration clause
was included within an employment agreement. 750
F.2d at 1549. The court applied New York law and
concluded that the consideration underlying the
larger employment contract was not sufficient to
support the arbitration clause. Id. at 1550. The Court
of Appeals of New York soon thereafter clarified that
an arbitration provision need not consist of coextensive promises to arbitrate and that “[i]f there is
consideration for the entire agreement that is
sufficient.” See Sablosky v. Edward S. Gordon Co.,
Inc., 535 N.E.2d 643, 646 (N.Y. 1989).
Lastly, Noohi v. Toll Bros., Inc. is not so much
evidence of a split as it is evidence of a singular
outlier. Noohi is predicated on the Maryland case of
Cheek v. United Healthcare of Mid-Atlantic, Inc., 835

32
A.2d 656 (Md. 2003), which held that consideration for
an underlying contract was not sufficient
consideration for an arbitration clause included in
that contract, and that the arbitration clause had to
be supported by independent consideration. See
Noohi, 708 F.3d at 607. As explained in Noohi, the
rationale for the Cheek rule is that any examination of
the validity of the contract as a whole would
impermissibly infringe on the role of the arbitrator to
assess the merits of any arbitrable dispute. Id.
Regardless of the validity of the Cheek rule under
the FAA, Noohi does not support the conclusion that
this petition should be granted. The Cheek rule is
confined to Maryland, and the Fourth Circuit does not
apply such a rule on a circuit-wide basis. See Noohi,
708 F.3d at 608 and n. 4 (discussing certifying a
similar question to the West Virginia Supreme Court
and getting a different result). In addition, even if the
Court wanted to address the Cheek rule, this case does
not present the record on which to do it. As already
discussed herein and explained in Jorja, Arkansas
does not follow a similar rule. This case is also not a
good candidate to address Cheek because the Cheek
rule is predicated on an arbitration provision being
included within some otherwise valid contract. In
contrast, the outcome here was dictated by
Petitioners’ insistence that the arbitration agreement,
itself, was a separate contract supported by its own
consideration.
This case falls in line with the overwhelming
weight of authority. It is also faithful to this Court’s
FAA decisions and does not provide a record on which
to examine the outcomes of factually distinct cases

33
from other courts. Accordingly, Respondents contend
that the petition should not be granted.
CONCLUSION
For the reasons discussed herein, Respondents
respectfully request that the Petition for a Writ of
Certiorari be denied.
Respectfully submitted,
Brian D. Reddick
Matthew D. Swindle
Counsel of Record
Heather G. Zachary
Reddick Moss, PLLC
One Information Way, Suite 105
Little Rock, AR 72202
(501) 907-7790
matthew@reddickmoss.com
and
H. Gregory Campbell
Campbell Law Firm, P.A.
2100 Riverdale Road, Suite 200B
Little Rock, AR 72202
(501) 372-5659
Counsel for Respondents
May 18, 2020.

